LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 2, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CHRISTOPHER SULLIVAN V. TEXAS A&M UNIVERSITY SYSTEM

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 2,196 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 2nd day of July 2021.

